                                                   NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

  Case Number: AIOOI0009                                                                         Page lofl


          We received allegations that a conflict of interest (COl) existed because an NSF
          rotator1/Assistant Director (AD)2 ("the subject")3 was improperly participating in
          the selection of a Division Director (DD) for the Division4 providing funding to the
          subject's home institution, thus creating a COI.5 We learned the subject acted as
          the selecting official for the DD position, but NSF's, Designated Agency Ethics
          Official (DAEO)6 determined there was no actual conflict of interests. 7 After the
          subject made his selection, but before it was formalized, the DAEO informed us she
          reassessed the matter and concluded it was best if the subject was not the selecting
          official, and she suggested delegating such duties to the Deputy AD (DAD), who
          agreed and signed the form as the new selecting official. 8
          We recommended NSF evaluate the process for the selection of the DD to ensure
          that no COl issues exist. NSF concluded its current COl precautions were
          sufficient to safeguard against the subject influencing or participating in decisions
          regarding his home institution.
          As a formality" we referred the matter to DOJ Public Integrity, which was not
          interested in pursuing the matter. We also filed the required Notification of COl
          Referral with the Office of Government Eth~cs.
          Because we believe that such a situation could reoccur, we recommended NSF
          institute a requirement that all rotators with selection authority solicit written
          advice from the DAEO prior to starting a hiring process, and that the DAEO's
          advice be communicated with HRM, if the rotators role needs to be limited. NSF
          agreed in part; .it implemented a new requirement for rotators to seek advice from
          the DAEO if they are a selecting official.
          Accordingly, this case is closed with no further action taken.


               1Employed through the Intergovernmental Personnel Act
               2[redacted].
              3 [redacted].
              4 [redacted].
              5 His home institution is [redacted], where he was its Director. [redacted] receives
          approximately 70% of its funding from [redacted].
              6 Karen Santoro.
              7 The DAEO told us she determined there was no actual conflict for the subject because one
          couldn't predict how the new hire would carry out hislher job. She said the lack of predictability
          precluded there being an actual COL She acceded there could still be an appearance issue.
              8 [redacted].




,NSF OIG Form 2 (11/02)
